No. SUPREME COURT OF THE UNITED STATES
DUSTIN MOSS
Petitioner
v.
UNITED STATES
Respondent
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

By: Simon R. Brown, Esq.
Court of Appeals Bar No. 25463
Preti Flaherty PLLP
P.O. Box 1318
Concord, NH 03302-1318
Phone: (603) 410-1500
sbrown@preti.com
Attorney for Petitioner

i
QUESTIONS PRESENTED
Where a search warrant particularly described
a package to be searched, was the search of a
completely different package illegal where that
package was solely referenced by its tracking number
in the warrant’s caption but was not otherwise
described?

ii
PARTIES TO THE PROCEEDING
Petitioner Dustin Moss was defendantappellee before the United States Court of Appeals
for the First Circuit.
The United States, through Assistant United
States Attorney Jonathan S. Davis, was plaintiffappellee before the United States Court of Appeals
for the First Circuit.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................ i
PARTIES TO THE PROCEEDING ......... ii
TABLE OF CONTENTS ........................... iii
TABLE OF AUTHORITIES ....................... v
OPINIONS BELOW .................................... 1
JURISDICTION .......................................... 1
CONSTITUTIONAL PROVISIONS,
ORDINANCES AND COURT RULES
INVOLVED ................................................... 2
STATEMENT OF THE CASE .................... 3
REASONS FOR GRANTING THE
PETITION .................................................... 6
ARGUMENT ................................................. 8
A. A mere reference to the 730
Package’s tracking number in its
caption, without the search
warrant otherwise authorizing the
search of that package, rendered it
facially invalid.................................. 8
B. The First Circuit placed undue
reliance upon facts unconnected

iv
with the warrant’s terms, including
the executing inspector’s
involvement in the 730 Package
investigation ................................... 11
APPENDIX ................................................. 14
APPENDIX A: Opinion of the
USDC-NH ............................................ App. 1
APPENDIX B: First Circuit
Court Opinion ................................. App. 31
APPENDIX C: Judgment
(Entered August 26, 2019) ............. App. 67
APPENDIX D: Order denying Petition
for Rehearing
(Entered September 24, 2019) ...... App. 70
APPENDIX E: Search Warrant with
Attachments .................................... App. 73

v
TABLE OF AUTHORITIES
CASES
Groh v. Ramirez, 540 U.S. 551
(2004) ..................................... 5, 6, 7, 8, 10, 12
In re Lafayette Academy, Inc., 608 F.2d 1,
4-5 (1st Cir. 1979) ......................................... 11
United States v. Bonner, 808 F.2d 864
(1st Cir. 1986) ............................... 7, 10, 11, 12
United States v. Klein, 565 F.2d 183 n.3
(1st Cir. 1977) ......................................... 11, 12
United States v. Moss, 936 F.3d 52, 60
(1st Cir. 2019) ....................................... 4, 9, 11
United States v. Qazah, 810 F.3d 879, 886
(4th Cir. 2015) ................................................. 9
United States v. Vega-Figueroa, 234 F.3d
744 (1st Cir. 2000)..................................... 7, 10

1
IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________________
PETITION FOR WRIT OF CERTIORARI
________________________________________________
Petitioner Dustin Moss respectfully prays that
a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
The opinion of the First Circuit Court of
Appeals appears at Appendix B to this petition. That
court’s opinion is published at 936 F.3d 52 (1st Cir.
2019).
JURISDICTION
The First Circuit Court of Appeals (“First
Circuit”) issued its decision on August 26, 2019. A
copy is attached at Appendix B. That court denied
rehearing on September 24, 2019. A copy of that
order is attached as Appendix D. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1254(1).

2
CONSTITUTIONAL PROVISIONS
U.S. Const. Amend. IV:
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
warrants shall issue, but upon probable cause,
supported by oath or affirmation, and particularly
describing the place to be searched, and the persons
or things to be seized.

3
STATEMENT OF THE CASE
Petitioner was indicted for, inter alia,
conspiracy to distribute a controlled drug
(methamphetamine) and possession of a firearm in
furtherance of a drug trafficking crime in the United
States District Court for the District of New
Hampshire.
Petitioner was arrested by postal inspectors
following the interception and search of a package
containing a large amount of methamphetamine
addressed to a person who had agreed to receive it in
the mail on behalf of Petitioner. Petitioner sought to
suppress this package (the “730 Package”) on the
basis that the warrant described and authorized the
search and seizure of a completely different package
unrelated to the investigation of Petitioner.
Specifically, the government had attached the wrong
Attachment A to the search warrant signed by the
magistrate judge, which described a different
package to be seized and searched. A copy of the
search warrant with attachments is attached as
Appendix E.
On April 13, 2018, a hearing was held on
Petitioner’s motion to suppress the contents of the
730 Package and a second package. The motion was
denied by the district court orally at the conclusion of
the hearing and in a subsequent written order. A
copy of the District Court’s Order is attached as
Appendix A.

4
On April 25, 2018, pursuant to a plea
agreement, Petitioner plead guilty to the offenses of
attempt to possess with intent to distribute
controlled substances (methamphetamine) in
violation of 21 U.S.C. §§846 and 841(b)(1)(A)(viii) and
possession of a firearm in furtherance of a drug
trafficking crime in violation of 18 U.S.C. §924(c).
The district court sentenced Petitioner to a total of
300 months in prison, stand committed, plus 5 years
of supervised release, consistent with a plea
agreement that permitted Petitioner to appeal the
suppression ruling.
On August 26, 2019, Petitioner’s appeal was
denied by the First Circuit Court of Appeals. See
Appendix B and C. That court held that, despite the
presence of conflicting descriptions in the search
warrant, the 730 Package was described with
sufficient particularity to render it valid. While the
Attachment A attached to the warrant described a
different package to be searched, the correct tracking
number was displayed in the search warrant’s
caption and, thus, the First Circuit concluded this
warrant “was not totally devoid of an accurate
description of the 730 Package.” United States v.
Moss, 936 F.3d 52, 60 (1st Cir. 2019). The court also
concluded that the warrant’s description was
sufficient to enable the executing officer to locate and
identify the object to be searched with reasonable
effort, based on that inspector having drafted the
warrant, segregated the package, and his knowledge
of its tracking number displayed in the warrant’s
caption. Id.

5
On September 24, 2019, the First Circuit
denied Petitioner’s motion for rehearing. See
Appendix D.
Petitioner now seeks a writ of certiorari from
this Court on the important question of whether the
lower court misapplied this Court’s holding in Groh
v. Ramirez, 540 U.S. 551 (2004).

6
REASONS FOR GRANTING THE PETITION
THE COURT SHOULD GRANT THE WRIT TO
DECIDE WHETHER THE FIRST CIRCUIT
APPROPRIATELY APPLIED THIS COURT’S
HOLDING IN GROH V. RAMIREZ, 540 U.S. 551
(2004)
“The Fourth Amendment states
unambiguously that ‘no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.”
Groh v. Ramirez, 540 U.S. at 557. In Groh, this
Court found a search warrant to be invalid due to the
complete failure to describe the property that was
actually searched. See Groh, 540 U.S. at 554
(warrant was “plainly invalid” where the affidavit
adequately and particularly described a stockpile of
firearms to be seized, but the warrant itself described
the place of the search, a two-story blue house).
The facts of this case are similar to those in
Groh, meriting this Court’s review and reversal of
the First Circuit’s Opinion. The 730 Package was
described in the affiant’s affidavit as a 26 lb., 11ounce package with a Las Vegas, Nevada return
address. While the warrant referenced the 730
Package’s tracking number solely in its caption, in
the body of the document, it did not describe that
package as “the property to be searched” along with
its location. The only property specifically described
to be searched in the warrant materials was a white

7
envelope weighing approximately 5 ounces with a
California return address, which was unrelated to
the investigation of Petitioner. This fact was
apparent to anyone who took a moment to read the
warrant materials, but investigators failed to
recognize this serious error with the warrant at any
time prior to, during, or after their search of the 730
Package.
Other than its tracking number appearing in
the warrant’s caption, the 730 Package was not
particularly described anywhere in the warrant as
the property to be searched. The First Circuit thus
misapplied the law and facts in concluding the 730
Package search warrant was facially valid.
No legal precedent was cited for the First
Circuit’s conclusion that a mere reference to the 730
Package’s tracking number in the caption of the
warrant saved it from invalidity, where the warrant’s
terms solely authorized search of a completely
different package. These facts are more analogous to
this Court’s Groh holding than the Bonner and VegaFigueroa cases relied upon by the First Circuit in its
Opinion. The First Circuit also placed undue
emphasis on the executing inspector’s involvement in
and familiarity with the investigation to uphold the
search while excusing the warrant’s facial infirmity.

8
I.

ARGUMENT
A.

A mere reference to the 730
Package’s tracking number in its
caption, without the search
warrant otherwise authorizing the
search of that package, rendered it
facially invalid.

In its Opinion, the First Circuit noted that
Petitioner “concedes as much” with respect to the
warrant being “not totally devoid of an accurate
description of the 730 Package.” Groh at 60. The
court also stated that Petitioner “concedes as much”
with respect to “the tracking number’s unique
combination of 13 digits (providing) a description
with a high degree of particularity.” Id.
Petitioner clarified that, while he conceded the
warrant displayed the 730 Package’s tracking
number solely in its heading, he did not concede this
solitary reference to that package elevated the
warrant to legal sufficiency. This is because a plain
reading of the warrant shows it did not authorize the
search of the 730 Package. Rather, it merely
referenced the 730 Package in its caption but, by its
terms, permitted search of a completely different
package described in its Attachment A.
Neither the First Circuit nor the government
cited precedent for the proposition that a mere
reference to an item in a warrant’s caption
authorizes that property to be searched where the

9
warrant’s plain terms solely permit the search of a
different, particularly described item. On these facts,
the First Circuit should have concluded the warrant
was facially invalid.
The First Circuit cited United States v. Qazah,
810 F.3d 879, 886 (4th Cir. 2015) in support of its
conclusion that the warrant authorizing the 730
Package’s search suffered from “a mere technical
error.” United States v. Moss at 60. Qazah,
however, does not support a finding that a reference
to an inaccurate warrant attachment – as here – will
pass constitutional scrutiny. In Qazah, law
enforcement searched the defendant’s house in
connection with a search warrant that mistakenly
incorporated an affidavit describing items to be
seized from a co-defendant’s residence. Id. at 882.
On appeal, the Fourth Circuit did not hold the search
warrant with the incorrect attachment was facially
valid. Rather, the Qazah court upheld seizure of
evidence from the defendant’s house as admissible
under the good-faith exception to the exclusionary
rule. Id. at 887.
It is doubtful the First Circuit would have
upheld this warrant on the grounds of “mere
technical error” if, for instance, no Attachment A was
affixed to the warrant at all. It is more egregious
here where an Attachment A was affixed, and it
described a completely different package to be
searched.

10
Contrary to the Opinion, this case is more
analogous to this Court’s holding in Groh than the
First Circuit’s holdings in United States v. Bonner,
808 F.2d 864 (1st Cir. 1986) and United States v.
Vega-Figueroa, 234 F.3d 744 (1st Cir. 2000). The
Bonner court found a search warrant that correctly
described the premises to be searched, but omitted
the address, to suffer only from a “minor, technical
omission” which did not invalidate it. Bonner, 808
F.2d at 866-67. Likewise, the Vega-Figueroa court
concluded that a mistake in the naming of the
apartment to be searched (building 44 instead of
building 45) did not invalidate the warrant as the
residence otherwise was particularly described in the
warrant. Vega-Figueroa, 234 F.3d at 756.
In contrast, this warrant did not particularly
describe as the “property to be searched” the 730
Package’s specific characteristics, such as its size,
dimensions, weight, and purported sender and
recipient listed on the package. Thus, this case is
distinguishable from Bonner (address omitted) and
Vega-Figueroa (apartment number misidentified)
where the property to be searched was otherwise
sufficiently detailed in the warrant. Rather, similar
to Groh, this warrant failed to sufficiently describe
the 730 Package. See Groh, 540 U.S. at 554 (warrant
was “plainly invalid” where it described the place of
the search, a two-story blue house, but failed to
particularly describe the stockpile of weapons to be
seized).

11
B.

The First Circuit placed undue
reliance upon facts unconnected with
the search warrant’s terms, including
the executing inspector’s involvement
in the 730 Package investigation.

The First Circuit examined the adequacy of
the warrant’s description of the 730 Package based
on whether it is “sufficient to enable the executing
officer to locate and identify” the object to be
searched with reasonable effort. United States v.
Moss at 60 (citing Bonner, 808 F.2d at 866)
(emphasis in the Opinion). In doing so, that court
cited factors entirely unconnected to the warrant’s
terms, such as the 730 Package having been
segregated in a postal inspection room and the
executing officer’s familiarity with the package and
the underlying investigation. Id.
This approach inappropriately relied upon
extraneous and fortuitous factors divorced from the
search warrant’s actual terms. As the dissent in
Bonner (Carter, Dist. J., dissenting in part and
concurring in part) noted, “[t]he sufficiency of a
warrant is to be judged from the warrant and its
attachments.” Id. at 869 (citing e.g. In re Lafayette
Academy, Inc., 610 F.2d 1, 4-5 (1st Cir. 1979)); United
States v. Klein, 565 F.2s 183 n.3 (1st Cir. 1977)).
Analysis, as here, that overlooks an
insufficient warrant simply “because the officers who
executed it possessed in their minds information
particular to the (property) intended to be searched”

12
does not adequately protect the rights of the property
owner. See id. (dissenting opinion). The subjective
knowledge and case involvement of the law
enforcement officer executing the warrant “is not in
logic or law an adequate substitute for the safeguard
of a facially sufficient warrant. In pragmatic terms,
such assumptions before or after the fact of the
execution of the warrant are lame and ineffective
safeguards.” Id. (where the dissent was “convinced
that this court should continue to abjure a doctrine
that is so unwise, unfounded, and ineffective.”).
As advocated by the Bonner dissent, the First
Circuit appropriately should have confined its
analysis to the warrant’s four corners, which
objectively authorized the search of a different
package - as described in Attachment A - than the
one actually searched and used in the prosecution of
Petitioner. See Appendix E. This analysis is
consistent with this Court’s guidance in Groh. The
contents of the 730 Package, accordingly, should
have been suppressed and all fruits from its search
likewise suppressed.
The petition for a writ of certiorari should be
granted in the interests of justice.

13
Dated: December 20, 2019
Respectfully submitted,
DUSTIN MOSS
By his attorneys,
PRETI FLAHERTY PLLP
/s/Simon R. Brown
Simon R. Brown
Counsel of Record
Attorney for Petitioner

14
APPENDIX
TABLE OF CONTENTS
APPENDIX A: Opinion of the
USDC-NH ............................................ App. 1
APPENDIX B: First Circuit
Court Opinion ................................. App. 31
APPENDIX C: Judgment
(Entered August 26, 2019) ............. App. 67
APPENDIX D: Order denying Petition
for Rehearing
(Entered September 24, 2019) ...... App. 70
APPENDIX E: Search Warrant with
Attachments .................................... App. 73

App. 1

APPENDIX A

App. 2
UNITED STATES DISTRICT COURT
DISTRICT OF NEW HAMPSHIRE
United States of America
v.

Civil No. 17-cr-79-JL
Opinion No. 2018 DNH 158

Dustin Moss
MEMORANDUM ORDER
In advance of a trial on a series of charges
related to, among other things, drug trafficking,
money laundering, and witness tampering,
defendant Dustin Moss moved to suppress
approximately 20 pounds of methamphetamine
discovered in two Priority Express Mail packages,
and any evidence resulting from the searches of those
two packages. This motion turns on whether Moss
had a reasonable expectation of privacy in the
packages, neither of which was addressed to him;
whether the warrant to search one of the packages
sufficiently described the property to be searched;
and whether the warrantless search of the second

App. 3
package fell under the consent and private search
exceptions to the warrant requirement.
After an evidentiary hearing and permitting
Moss to supplement his arguments, the court denied
Moss’s motion.1 Moss then pleaded guilty to one
count of attempting to possess with intent to
distribute 500 grams or more of a mixture containing
methamphetamine in violation of 21 U.S.C. §§ 846
and 841(b)(1)(A)(viii) and one count of possession of a
firearm in furtherance of a drug trafficking crime in
violation of 18 U.S.C. § 924(c).2 Though he waived
his right to appeal several aspects of his plea, Moss,
with the government’s consent, “expressly reserve[d]
the right to appeal the denial of his Motion to
Suppress.”3 See Fed. R. Crim. P. 11(a)(2).
This order sets forth the bases for the court’s
denial of Moss’s motion in greater detail. See, e.g.,
United States v. Joubert, 980 F. Supp. 2d 53, 55 n.1
(D.N.H. 2014), aff’d, 778 F.3d 247 (1st Cir. 2015)
1

See Order of April 20, 2018.

2

Plea Agreement (doc. no. 63) at 1.

3

Id. at 13.

App. 4
(citing In re Mosley, 494 F.3d 1320, 1328 (11th Cir.
2007)) (noting a district court’s authority to later
reduce its prior oral findings and rulings to writing).
First, the court addresses whether Moss had a
privacy interest in the two packages, neither of
which was addressed to him, sufficient to confer on
him standing to challenge the searches of those
packages. It then concludes that, even assuming
that he has standing, neither search violated the
warrant requirements of the Fourth Amendment so
as to require suppression of the evidence obtained
through them.
I.

Background
The court makes the following findings of fact

based on the testimony and other evidence received
at the suppression hearings.
A.

The 730 package

A package bearing the tracking number
EL810533730US (the “730 package”) was mailed
from Las Vegas, Nevada, on April 18, 2017.
Weighing a little over 26 pounds, it was addressed to
a recipient named O’Rourke at 3 Blackberry Way,

App. 5
apt. 108, in Manchester, New Hampshire. It bore a
return address of “Tom fairbanks, 328 Florrie Ave.”
in Las Vegas.
1.

Search of the 730 package

On the evening of April 18, United States
Postal Inspector Bruce Sweet reviewed a list of
packages scheduled to arrive in New Hampshire
from Las Vegas, Nevada. Based on his participation
in an investigation into Moss and his co-defendant,
Katrina Jones, between October 2016 and April
2017, Inspector Sweet was aware of a drug
conspiracy wherein packages from Las Vegas
containing methamphetamine arrived in New
Hampshire, and packages containing cash were sent
from New Hampshire to Las Vegas. Some of those
packages had “Florrie Ave.” as a return address.
Accordingly, while the package was still in Las
Vegas, Inspector Sweet noticed the 730 package as
originating from that street and identified it as
suspicious based on his knowledge of that
investigation, the origin and destination, and its
weight.

App. 6
When the package arrived in Manchester the
next morning, he collected the 730 package and
placed it into a package lineup for a drug-sniffing
dog. After the dog alerted on the 730 package,
Inspector Sweet secured it in the United States
Postal Inspection Service’s offices.
Working with Assistant United States
Attorney William Morse, Sweet applied for a warrant
to search the package. His affidavit attached to the
warrant application correctly and accurately
described the 730 package in “Attachment A” as a
“black ‘Kicker Speaker’ cardboard box,” with its
dimensions and address.4
Having reviewed those materials, the
magistrate judge issued a search warrant that same
morning. The warrant’s caption correctly identified
the package, reading: “In the Matter of the Search of
USPS Priority Express Package Bearing Tracking

4

Mot. To Supp. Ex. A (doc. no. 52-2) at 7.

App. 7
Number EL810533730US.”5 In its body, the warrant
described the area to be searched as “See Attachment
A, as attached hereto and incorporated herein.” But,
due to a clerical error in the United States Attorney’s
Office, “Attachment A” to the issued warrant
identified the property to be searched as a completely
different package.6 Inspector Sweet did not review
the warrant or its attachments after it issued or
notice the erroneous “Attachment A” when he
executed the warrant, ultimately served it on
O’Rourke, or returned it.
An hour or so after the warrant issued, Sweet
searched the 730 package. Inside the box he found a
5
6

Mot. To Supp. Ex. B (doc. no. 52-3).
Id. at 3. The package described in the warrant’s Attachment

A is a USPS Priority Mail Express package of a different color
(white), size (envelope), and weight (5 ounces), addressed to a
different recipient (Mr. Golden) in a different city (Laconia, New
Hampshire) from a different sender (Sequoia High School) in a
different state (California), and, of course, bears a different
tracking number (EL57617538US). Inspector Sweet testified
that the package actually described in the warrant’s
Attachment A related to a package he searched in November
2016.

App. 8
large speaker and, inside the speaker, 12 zip-top
bags, each containing almost exactly one pound of a
white crystalline substance that tests later identified
as methamphetamine. Having replaced the narcotics
with miscellaneous items to bring the box to its
original weight, he repackaged the speaker, resealed
the package, and delivered it to the post office.
2. Delivery of the 730 package
Sabrina Moss, the defendant’s sister and
O’Rourke’s dealer, had asked O’Rourke earlier in
April to receive a package on behalf of her brother.
In exchange, she offered him three-and-a-half grams
of crack cocaine, which O’Rourke testified he would
value at approximately $300. O’Rourke agreed.
Sabrina did not tell him when the package would
arrive or to expect more than one package. Neither
Sabrina nor Moss instructed him either to open or
not to open the package.
After Inspector Sweet concluded his search of
the package, a postal inspector dressed as a letter
carrier delivered a notice to O’Rourke’s mailbox that
the package had arrived at the post office. Several

App. 9
hours later, Moss met O’Rourke at O’Rourke’s
apartment, where Sabrina and her boyfriend joined
them. They waited several hours at O’Rourke’s
apartment, on the assumption that the package
might yet be delivered there, before decamping.
O’Rourke then drove to the post office while Moss,
who left the apartment at the same time, drove to a
nearby shopping center and parked behind a
furniture store.
Inspector Sweet, who was behind the counter
at the post office, delivered the 730 package to
O’Rourke after O’Rourke presented his license and
the notice left in his mailbox. Leaving the post office,
O’Rourke met Moss behind the furniture store and
placed the package in the back seat of Moss’s vehicle.
Moss and O’Rourke were both arrested on the spot.
O’Rourke was subsequently released on bond.

App. 10
B.

The 962 package

Though he was not expecting one,7 on April 22,
a second parcel addressed to O’Rourke arrived in his
apartment’s mailbox at 3 Blackberry Way. This
package, also from Las Vegas, bore the tracking
number EL652259962US (the “962 package”). A key
in his own mailbox indicated a larger package in a
bigger mailbox but O’Rourke, wanting nothing to do
with it, left both key and package alone.
Brenda Krimtler, a friend of O’Rourke’s,
retrieved his mail the next day. She brought the box
into the kitchen, opened it, and observed white
powder inside. When she informed O’Rourke of its
contents, he instructed her to reseal the 962 package
and return it to the mailbox, which she did.
O’Rourke informed his attorney about the package
who, with O’Rourke’s agreement, in turn relayed that
information to Inspector Sweet. O’Rourke’s attorney
7

Moss testified that he asked his sister, Sabrina, to find

someone who could receive several packages for him, but there
is no evidence that Sabrina told O’Rourke to expect more than
one package.

App. 11
also informed Inspector Sweet that the 962 package
had been opened, that O’Rourke believed it contained
narcotics, that O’Rourke no longer wanted it, and
that Inspector Sweet could search the package.
With O’Rourke’s attorney’s permission,
Inspector Sweet called O’Rourke directly later that
evening. O’Rourke, likewise, informed Inspector
Sweet that his friend had opened the package, that it
appeared to contain narcotics, and that he consented
to the package being seized and searched.
Armed with permission to search the package
from O’Rourke, the addressee, Inspector Sweet did
not obtain a warrant. He instead contacted another
postal inspector who lived closer to O’Rourke,
Inspector Steve Riggins, who retrieved the 962
package. With Inspector Sweet on the phone,
Inspector Riggins opened it in his car. Like the 730
package, the 962 package contained eight zip-top
bags containing a white substance that later proved
to be methamphetamine. Like Krimtler, Inspector
Riggins was able to view the bags of white powder

App. 12
after having opened the 962 package, without
opening any other container within the 962 package.
II.

Analysis
Moss challenges the searches of both packages

-- the 730 package on grounds that the warrant was
defective and the 962 package on grounds that the
search was warrantless. To succeed in such
challenges, of course, Moss must demonstrate
standing -- that is, that he had a reasonable
expectation of privacy in the packages, which were
addressed to O’Rourke, not Moss. Even assuming he
had such an expectation, neither of Moss’s challenges
to the searches succeeds.
A.

Standing

An individual has a right “to be secure in [his]
. . . papers [ ] and effects, against unreasonable
searches and seizures.” U.S. Const. amend. IV. A
search within the meaning of the Fourth Amendment
“occurs when the government violates a subjective
expectation of privacy that society recognizes as
reasonable.” United States v. D’Andrea, 648 F.3d 1,
5-6 (1st Cir. 2011) (quoting Kyllo v. United States,

App. 13
533 U.S. 27, 33 (2001)). “Fourth Amendment rights
generally cannot be vicariously asserted.” United
States v. Bates, 100 F. Supp. 3d 77, 83 (D. Mass.
2015) (Saris, J.) (citing Alderman v. United States,
394 U.S. 165, 174 (1969)). The defendant therefore
must carry the burden of demonstrating that his
“reasonable expectation of privacy in the area
searched and in relation to the items seized . . . at
the time of the pretrial hearing and on the record
compiled at that hearing.” United States v. Aguirre,
839 F.2d 854, 856 (1st Cir. 1988) (internal citations
omitted). “Unless and until the ‘standing’ threshold
is crossed, the bona fides of the search and seizure
are not put legitimately into issue.” Id.
“Letters and other sealed packages are in the
general class of effects in which the public at large
has a legitimate expectation of privacy; warrantless
searches of such effects are presumptively
unreasonable.” United States v. Jacobsen, 466 U.S.
109, 114 (1984). Sealed packages in the mail are
thus “free from inspection by postal authorities,
except in a manner provided by the Fourth

App. 14
Amendment.” United States v. Van Leeuwen, 397
U.S. 249, 250 (1970). Despite this general rule, “the
Fourth Amendment does not protect items that a
defendant ‘knowingly exposes to the public’
Consequently, if a letter is sent to another, the
sender’s expectation of privacy ordinarily terminates
upon delivery.” United States v. Dunning, 312 F.3d
528, 531 (1st Cir. 2002) (quoting United States v.
Miller, 425, U.S. 435, 442 (1976)).
Whether a defendant has a privacy interest
sufficient to challenge a search of a particular
location depends on that defendant’s:
Ownership, possession and/or control;
historical use of the property searched
or the thing seized; ability to regulate
access; the totality of the surrounding
circumstances; the existence or
nonexistence of a subjective
anticipation of privacy; and the
objective reasonableness of such an
expectancy under the facts of a given
case.

App. 15
United States v. Stokes, 829 F.3d 47, 53 (1st Cir.
2016) (quoting Aguirre, 839 F.2d at 856-57).
Invoking these factors, some courts in this Circuit
have concluded that a defendant who is neither the
sender nor addressee of a package (like the
defendant here) nevertheless has a privacy interest
when the recipient acts as a bailee for the defendant.
In Bates, for example, the defendant (1) caused the
package to be sent, (2) meticulously tracked them,
and (3) specifically and directly ordered the
addressee not to open them, but instead to deliver
them to the defendant the moment they arrived.
Bates, 100 F. Supp. 3d at 84. Similarly, a nonaddressee defendant may have a reasonable
expectation of privacy when he or she asserted an
ownership interest in the package itself, the
addressee disclaimed any interest, and no one with
any ownership or possessory interest participated in
the search. United States v. Allen, 741 F. Supp. 15,
17 (D. Me. 1990) (Hornby, J.).
By contrast, in United States v. LeClair, the
defendant had no expectation of privacy when he was

App. 16
neither the sender nor addressee and made no
showing that “he at any time exerted ownership,
possession, control, or historical use of the package or
its contents.” No. 11-CR-39-GZS, 2011 WL 6341088,
at *3 (D. Me. Dec. 19, 2011) (Signal, J.). And in
United States v. Colon-Solis, the defendant lacked
any expectation of privacy in a box of cash that he
packaged and shipped from New Jersey because he
addressed it to a friend in Puerto Rico at her home
and asked her to hold it until he arrived. 508 F.
Supp. 2d 186, 192 (D.P.R. 2007) (Pérez-Giménez, J.).
The Court of Appeals for the First Circuit has
not definitively addressed this issue. It has noted
that “many of the federal courts of appeals have been
reluctant to find that a defendant holds a reasonable
expectation of privacy in mail where he is listed as
neither the sender nor the recipient, at least absent
some showing by the defendant of a connection . . . .”
Stokes, 829 F.3d at 52 (citing decisions of the Fourth,
Fifth, Seventh, Eighth, and Eleventh Circuit Courts
of Appeals). In Stokes, the Court of Appeals
concluded that a defendant lacked an expectation of

App. 17
privacy in the outsides (i.e., addresses and writing on
the envelopes) of letters that were addressed to
others but placed into his Post Office box. But it
declined to “decide whether a defendant ever could
have a reasonable privacy interest in mail where he
is not listed as addressee or addressor,” id. at 52-53,
leaving the possibility open. Ans, though it
acknowledged the decisions in Bates and Allen, it
specifically avoided “address[ing] the question of
whether a defendant in these situations could assert
a reasonable expectation of privacy in the searched
mail.” Stokes, 829 F.3d at 55 n.8. In light of that
guidance, the court declines to conclude that Moss
lacked a reasonable expectation of privacy in either
package solely because they were addressed to
O’Rourke instead of Moss, and addresses the
question on a package-by-package basis.
1.

The 730 package.

Though there is no evidence that either Moss
or Sabrina ever told O’Rourke not to open the 730
package, see Bates, 100 F. Supp. 3d at 84, Moss
exerted a certain amount of “ownership, possession,

App. 18
[and] control” over the package, LeClair, 2011 WL
6341088, at *3, possibly creating a bailment
relationship with O’Rourke. For example, upon
discovering that the package arrived in Manchester,
Moss drove to O’Rourke’s apartment and waited for
O’Rourke to return home from work, retrieve the
package, and deliver it to him. And Moss drove with
O’Rourke to the post office to retrieve it once
O’Rourke received the notice for it, and then waited
in a nearby shopping center so that O’Rourke could
deliver the package to him directly.
O’Rourke’s actions further indicate his
understanding that he received the 730 package on
Moss’s behalf. Specifically, he agreed to receive it at
his home in exchange for drugs from Sabrina. When
notified of its arrival at the post office, he picked it
up and delivered it straight to Moss.
Apart from the potential bailment
relationship, Moss may also have had an expectation
of privacy in the package at the time that it was
searched -- that is, while it remained in the mail
stream. Cf. Dunning, 312 F.3d at 531 (sender has

App. 19
reasonable expectation of privacy in letters until they
reach recipient). As the one who ordered the
package, Moss may have had an expectation of
privacy in the package before it reached O’Rourke,
and therefore before O’Rourke, as the addressee, had
an opportunity to open it, destroying the expectation.
See Bates 100 F. Supp. 3d at 84 (package searched
before they reached bailee).
2.

The 962 package.

The evidence of Moss’s privacy interest in the
962 package is somewhat less compelling. Again,
there is no evidence that either Sabrina or Moss
asked O’Rourke to receive a second package or
informed him that a second package would arrive.
Thus, there is no evidence that O’Rourke held the
962 package as Moss’s bailee. Furthermore, the 962
package was not only delivered to O’Rourke but also
opened by a third party, Krimtler, before the USPIS
seized and searched it. Under these circumstances,
any expectation of privacy Moss held in the 962
package likely ceased once it was delivered to
O’Rourke. Cf. id.

App. 20
The court need not definitively resolve the
question of Moss’s privacy interests in either
package, however. Even assuming that he had such
an interest sufficient to confer standing to challenge
the searches, neither of his challenges to those
searches succeeds.
B.

Moss’s warrant-based challenges

The Fourth Amendment shields individuals
from “unreasonable searches and seizures.” U.S.
Const. amend. IV. Accordingly, a search of private
property is generally unconstitutional unless
conducted pursuant to a valid search warrant. Katz
v. United States, 389 U.S. 347, 357 (1967). Absent a
warrant, the prosecution must establish that the
search “came within a recognized exception to the
Fourth Amendment warrant requirement.” United
States v. Doward, 41 F.3d 789, 791 (1st Cir. 1994).
Moss seeks the suppression of evidence from
both packages, arguing that neither search complied
with the warrant requirements of the Fourth
Amendment. First, he challenges that validity of the
warrant obtained before searching the 730 package

App. 21
because, he contends, it failed to describe the place to
be searched with the requisite particularity because
of the defective Attachment A. He challenges the
admittedly warrantless search of the 962 package as
failing to fall within any of the recognized exceptions
to the warrant requirement.
Neither challenge warrants suppression of the
evidence. Though the attachment to the warrant to
search the 730 package described the wrong package,
the face of the warrant listed the correct tracking
number and, under the circumstances, the
probability that Inspector Sweet – who had already
secured the 730 package -- would execute the
warrant by searching an incorrect package was
exceedingly low. And both the addressee’s consent
and the private search doctrine justified the
warrantless search of the 962 package.
1.

730 package

Under the Fourth Amendment’s particularity
requirement, “no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation,
and particularly describing the place to be searched,

App. 22
and the persons or things to be seized.” U.S. Const.
amend. IV. “The manifest purpose of [this
requirement] is to prevent wide-ranging general
searches by the police.” United States v. Bonner, 808
F.2d 864, 866 (1st Cir. 1986). (quoting United States
v. Leon, 468 U.S. 897, 963 (1984)). A warrant is
therefore facially invalid if it fails to describe with
particularity the place to be searched. Groh v.
Ramirez, 540 U.S. 551, 557 (2004). When it so fails,
“[t]he fact that the application adequately described
the ‘things to be seized’ does not save the warrant
from its facial invalidity. The Fourth Amendment by
its terms requires particularity in the warrant, not in
the supporting documents.” Id.
“The test for determining the adequacy of the
description of the location to be searched is whether
the description is sufficient ‘to enable the executing
officer to locate and identify the premises with
reasonable effort, and whether there is any
reasonable probability that another premise might be
mistakenly searched.’” Bonner, 808 F.2d at 866.
Here, despite the facially incorrect Attachment A, the

App. 23
evidence suggests that there was no reasonable
probability that any other package than the 730
package -- including the one actually described in
Attachment A – would mistakenly be searched.
First, the warrant did contain the 730
package’s unique tracking number: it appeared in
the caption of warrant. Second, even before the
warrant issued, Inspector Sweet had identified the
particular package to be searched by its description
(a black “Kicker speaker” box weighing
approximately 26 pounds) and, furthermore, had
secured it in the USPIS office at the postal facility in
Manchester. Finally, Inspector Sweet himself
executed the warrant on the box so described, which
contained the correct tracking number, and which he
had personally secured in the USPIS office. He
testified that although he did not read the warrant
after it issued, because the magistrate judge made no
corrections, he assumed the warrant covered the
package that he correctly described in the
attachments that he had drafted -- specifically, the

App. 24
730 package. And that is the package that he
searched.
Though perhaps troubling that no one noticed
the incorrect Attachment A on the warrant, and
while it may have caused ambiguity had the warrant
been executed by another inspector, under the
totality of the circumstances present in this case,
there was little, if any, “reasonable probability that
another [package] might be mistakenly searched.”
Bonner, 808 F.2d at 866. The warrant was not,
therefore, facially invalid. See United States v.
Vega-Figueroa, 234 F.3d 744, 756 (1st Cir. 2000)
(warrant that listed the wrong address not invalid
where agent who made observations on which basis
the warrant issued also executed it and searched the
correct apartment). Accordingly, the evidence
discovered during the search of the 730 package need
not be suppressed.
2.

962 package

The parties agree that the USPIS obtained no
warrant to search the 962 package. Accordingly, the
prosecution bears the burden of establishing that the

App. 25
search of that package “came within a recognized
exception to the Fourth Amendment warrant
requirement.” Doward, 41 F.3d 791. The United
States Attorney here argues that the search of the
962 package fell within two such exceptions: that it
was justified by O’Rourke’s consent and by the
private search doctrine. The evidence supports both
exceptions.
Consent. Both O’Rourke and Inspector Sweet
testified that he verbally consented to the seizure
and search of the 962 package. That O’Rourke twice
affirmatively consented to the search and requested
that the USPIS seize the package -- first through his
attorney and then directly – establishes the fact of
his consent.8

8

“For consent to a search to be valid, the government must

prove by a preponderance of the evidence that the consent was
uncoerced.” United States v. Bey, 825 F.3d 75, 80 (1st Cir.
2016). Moss does not argue that O’Rourke’s consent in this case
was in any sense coerced. And the fact that O’Rourke, through
counsel, affirmatively contacted the USPIS about the package
after it arrived strongly suggests that it was not.

App. 26
The fact that O’Rourke received the package
on Moss’s behalf does not vitiate that consent. First,
as the addressee and actual recipient of the package,
O’Rourke likely had the actual authority to consent
to the search. His consent, as “one who possesses
common authority over premises or effect” is thus
“valid as against the absent, nonconsenting person
with whom that authority is shared,” such as Moss.
United States v. Matlock, 415 U.S. 164, 170 (1974).
Even were he a mere bailee of the 962 package
– contrary to the weight of the evidence, as discussed
supra Part III.A.2 -- that status would not invalidate
the search. “A search is valid if, at the time, officers
reasonably believe a person who has consented to a
search has apparent authority to consent, even if the
person in fact lacked that authority.” United States
v. Gonzalez, 609 F.3d 13, 18 (1st Cir. 2020). The
Postal Service’s Administrative Support Manual
authorizes “a postal employee acting with the
consent of the addressee or sender” to inspect
packages otherwise sealed against inspection.
Accordingly, at the time of the search, Inspectors

App. 27
Sweet and Riggins reasonably believed that
O’Rourke, as the addressee of the 962 package, had
the authority to consent to its search. The search
therefore falls within the consent exception to the
warrant requirement.
Private search. The search of the 962 package was
also justified by the private search doctrine. The
Fourth Amendment protects against warrantless
searches by the government, not by private parties.
Jacobsen, 466 U.S. at 115. “The private search
doctrine provides that, if a private actor . . . searches
evidence in which an individual has a reasonable
expectation of privacy, and then provides that
evidence to law enforcement or its agent . . . ‘[t]he
additional invasions of [the individual’s] privacy by
the government agent must be tested by the degree
to which they exceeded the scope of the private
search.’” United States v. Powell, No. 17-1683, slip
op. at 8 (1st Cir. July 16, 2018) (quoting Jacobsen,
466 U.S. at 115 (1984)). This is because “when an
individual reveals private information to another, he

App. 28
assumes the risk that his confidant will reveal that
information to the authorities, and if that occurs the
Fourth Amendment does not prohibit governmental
use of that information.” Jacobsen, 466 U.S. at 117.
Under the private search doctrine, “there is no
Fourth Amendment violation if the search by law
enforcement or its agent is coextensive with the
scope of the private actor’s private search and there
is ‘a virtual certainty that nothing else of
significance’ could be revealed by the governmental
search.” Powell, slip op. at 8 (quoting Jacobsen, 466
U.S. at 115). “But if, instead, that search ‘exceed[s]
the scope of the private search,’ then the government
must have ‘the right to make an independent search’
under the Fourth Amendment in order for that
search to comport with the Constitution.” Id.
(quoting Jacobsen, 466 U.S. at 116).
Here, O’Rourke’s friend, Krimtler, conducted a
private search before the USPIS inspected the
package.9 Specifically, she opened the package, saw
that it contained powder, and informed O’Rourke of
9

The defendant does not challenge Krimtler’s conduct.

App. 29
the fact -- an act that prompted O’Rourke, through
his attorney, to contact the USPIS. And the USPIS’s
subsequent search of the package was coextensive
with Krimtler’s private search. Inspector Riggins,
after seizing the package, opened it and was,
likewise, able to view the white powder contained in
clear zip-top baggies. Accordingly, the private search
exception to the warrant requirement applies.
III.

Conclusion
Finding that, even assuming that Moss has

standing to challenge the searches of the 730 and 962
packages, those searches did not violate the Fourth
Amendment, the court DENIED his motion10 to
suppress the evidence discovered during those
searches and resulting therefrom, and his motion for
reconsideration of the same.11
SO ORDERED.

10

Document no. 52.

11

Document no. 60.

App. 30
s/ Joseph N. Laplante
Joseph N. Laplante
United States District Judge
Dated:
cc:

August 2, 2018,

John R. Davis, AUSA
Shane Kelbley, AUSA
Simon R. Brown, Esq.

App. 31

APPENDIX B

App. 32
936 FEDERAL REPORTER, 3d SERIES
UNITED STATES of America,
Appellee,
v.
Dustin MOSS, Defendant, Appellant
No. 18-1793
United States Court of Appeals,
First Circuit
August 26, 2019
Background: Defendant moved to suppress
methamphetamine that postal inspector discovered
in United States Postal Service (USPS) packages.
The United States District Court for the District of
New Hampshire, Joseph N. Laplante, J., denied
motion. Defendant appealed.
Holdings: The Court of Appeals, Torruella, Circuit
Judge, held that:

App. 33
(1) search warrant that included conflicting
descriptions of package to be seized was not invalid,
and
(2) warrantless search of package was justified by
addressee’s consent.
Affirmed.
1. Searches and Seizures  162
While courts typically treat the question of
whether a defendant has a reasonable expectation of
privacy as a threshold issue, sometimes referring to
it as an issue of standing, this analysis is more
properly placed within the purview of substantive
Fourth Amendment law than within that of
standing. U.S. Const. Amend. 4.
2. Searches and Seizures  162
Whether a defendant has a reasonable
expectation of privacy is not a jurisdictional question
and hence need not be addressed before addressing
other aspects of the merits of a Fourth Amendment
claim. U.S. Const. Amend. 4.
3. Criminal Law  1139, 1158.12

App. 34
Appellate court reviews the district court’s
denial of a motion to suppress scrutinizing its factual
findings for clear error and its legal conclusions,
including its ultimate constitutional determinations,
de novo.
4. Criminal Law  1134.60
Appellate court may affirm suppression
rulings on any basis apparent in the record.
5. Searches and Seizures  13.1
“Search” within the meaning of the Fourth
Amendment occurs whenever the government
intrudes upon any place and in relation to any item
in which a person has a reasonable expectation of
privacy. U.S. Const. Amend. 4.
See publication Words and Phrases for other
judicial constructions and definitions.
6. Searches and Seizures  192.1
To advance claims for protection under the
Fourth Amendment, defendant carries the burden of
showing that he has a reasonable expectation of
privacy in the area searched and in relation to the
items seized. U.S. Const. Amend. 4.

App. 35
7. Criminal Law  1134.49(4)
Searches and Seizures  162
Because whether a defendant has a reasonable
expectation of privacy is not jurisdictional, it is
within an appellate court’s discretion to forgo the
question and proceed directly to the constitutionality
of the challenged searches. U.S. Const. Amend. 4.
8. Searches and Seizures  126
Test for determining the adequacy of the
description in a warrant of the location to be
searched is whether the description is sufficient to
enable the executing officer to locate and identify the
premises with reasonable effort, and whether there is
any reasonable probability that another premise
might be mistakenly searched. U.S. Const. Amend.
4.
9. Criminal Law  1134.4
When carrying out inquiry of whether warrant
adequately described place to be searched and items
to be seized, appellate court does not strictly limit its
analysis to the four corners of the warrant but also
considers the circumstances of the warrant’s

App. 36
issuance and execution; notwithstanding, the content
of the warrant application is outside the scope of
court’s analysis, and it cannot save the actual
warrant from its failure to provide an adequate
description. U.S. Const. Amend. 4.
10. Searches and Seizures  124
Fact that a warrant application adequately
describes the things to be seized does not save a
warrant from its facial invalidity; the Fourth
Amendment by its terms requires particularity in the
warrant, not in the supporting documents. U.S.
Const. Amend. 4.
11. Searches and Seizures  124
Search warrant affidavit may be referred to for
purposes of providing particularity if the affidavit
accompanies the warrant, and the warrant uses
suitable words of reference which incorporate the
affidavit. U.S. Const. Amend. 4.
12. Searches and Seizures  126
Search warrant that included conflicting
descriptions of United States Postal Service (USPS)
package to be seized was not invalid, although

App. 37
warrant incorporated by reference attachment that
described totally distinct package; warrant provided
description of correct package in form of its exclusive
tracking number, warrant suffered from mere
technical error, and fact that postal inspector
isolated package in parcel inspection room following
positive dog sniff but prior to issuance of search
warrant, coupled with his familiarity with package’s
physical characteristics effaced any reasonable
probability of him mistakenly searching another
package. U.S. Const. Amend. 4.
13. Searches and Seizures  181
Warrantless search of United States Postal
Service (USPS) package was justified by addressee’s
consent; addressee verbally consented to search of
package twice, first through his attorney and then
directly to postal inspector, and as package’s
addressee and recipient, he had actual authority over
package and therefore capacity to consent to its
search. U.S. Const. Amend. 4.
________

App. 38
APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF NEW
HAMPSHIRE (Hon. Joseph N. Laplante, U.S.
District Judge)
Simon R. Brown, with whom Preti Flaherty
PLLP, Concord, NH, was on brief, for appellant.
John S. Davis, Assistant United States
Attorney, with whom Scott W. Murray, United States
Attorney, was on brief, for appellee.
Before TORRUELLA, LYNCH, and
KAYATTA, Circuit Judges.
TORRUELLA, Circuit Judge.
Dustin Moss (“Moss”) appeals from the district
court’s denial of his motion to suppress
approximately twenty pounds of methamphetamine
that a postal inspector discovered in two United
States Postal Service Priority Mail Express
packages, as well as any evidence resulting from the
searches of those packages. After careful review, we
affirm.
I.
A.

BACKGROUND

Factual Background

App. 39
1. The 730 Package
On April 18, 2017, U.S. Postal Inspector Bruce
Sweet (“Sweet”) singled out from a list of incoming
mail a package scheduled to arrive from Las Vegas,
Nevada, to Manchester, New Hampshire. Since
October 2016, Sweet had been participating in the
investigation of a drug conspiracy in which packages
containing methamphetamine were sent from Las
Vegas to New Hampshire and, in return, packages
containing money were sent from New Hampshire to
Las Vegas. According to postal databases, the
singled-out package weighed twenty-six pounds; was
addressed to Brian O’Rourke at 3 Blackberry Way,
Apt. 108, Manchester, New Hampshire; and bore the
tracking number EL810533730US (the “730
Package”). More importantly, it had “328 Florrie
Ave.”1 in Las Vegas as the return address, which
matched the “Florrie Ave.” return address used in
other packages identified throughout the drug
conspiracy investigation. Based on these
1

Sweet later determined that the “328 Florrie Ave.” address in

Las Vegas did not exist.

App. 40
characteristics and his knowledge of the
investigation, Sweet deemed the 730 package
suspicious.
Accordingly, the night before the package’s
arrival, Sweet drafted an affidavit in support of a
warrant to search the 730 Package and e-mailed it to
Assistant United States Attorney William Morse
(“AUSA Morse”). Sweet’s affidavit included an
attachment labelled “Attachment A,” which
accurately described the 730 Package as a “black
‘Kicker Speaker’ cardboard box,” and detailed the
package’s weight and dimensions. The attachment
also identified the 730 Package’s addressee,
O’Rourke, as well as the package’s final destination.
Sweet collected the 730 Package and placed it in a
canine drug-sniff lineup shortly after the package
arrived in Manchester on the morning of August 19,
2017. After the drug-sniffing dog alerted on the 730
Package, Sweet secured the package in the United
States Postal Inspection Service’s parcel inspection

App. 41
room.2 Sweet effectively separated the 730 Package
from all other mail held in the postal facility given
that there were no other packages in the parcel
inspection room at this point.
AUSA Morse proceeded to e-mail Sweet’s affidavit
to court personnel that same morning. AUSA
Morse’s e-mail indicated that his office was still
working on the associated paperwork. Within an
hour of the e-mail’s delivery, AUSA Morse and Sweet
arrived at the magistrate judge’s chambers with a
complete search warrant packet consisting of: (1) the
search warrant application; (2) Sweet’s affidavit and
its two accompanying attachments; and (3) the
proposed search warrant. In the space provided for a
description of the property to be searched, the
warrant application stated: “See Attachment A to
Affidavit of U.S. Postal Inspector Bruce A. Sweet
which is incorporated herein by reference.”. As
mentioned above, Attachment A of Sweet’s affidavit
provided an accurate and detailed description of the
2

Access to the parcel inspection room is limited to Postal

Inspection Service employees.

App. 42
730 Package. After reviewing the search warrant
application and Sweet’s affidavit, the magistrate
judge issued the search warrant.3
However, due to a clerical error in the U.S.
Attorney’s Office, the document identified as
“Attachment A” that was appended to the search
warrant was different from the one attached to
Sweet’s affidavit and reviewed by the magistrate
judge. The issued warrant’s Attachment A did not
describe the 730 Package, a twenty-six pound
cardboard box, but rather a five-ounce envelope
Sweet had searched during the course of an
unrelated investigation from November 2016.4 The

3

Similar to the search warrant application, the actual search

warrant stated “See Attachment A, as attached hereto and
incorporated herein” in the space provided for the description of
the property to be searched.
4

Apart from being of a different type and weight than the 730

Package, the package described in the issued warrant’s
Attachment A was addressed to a different recipient, Mr.
Golden; destined to a different city, Laconia, New Hampshire;
had a different sender, Sequoia High School in California; and,

App. 43
warrant, nevertheless, still included information
reflecting its relation to the 730 Package.
Specifically, its caption correctly read:
In the Matter of the Search of
(Briefly describe the property to be searched . . . )
USPS Priority Mail Express Package Bearing
Tracking
Number EL 810533730US.
In other words, the issued warrant included the 730
Package’s exclusive tracking number, despite the
description of another package in its Attachment A.
Unaware of the mistakenly appended attachment,
Sweet proceeded to search the 730 Package. Inside
the package, he found a large speaker and, inside the
speaker, twelve zip-top bags, each containing almost
exactly one pound of a white crystalline substance
later identified as methamphetamine. Sweet then
replaced the narcotics with miscellaneous items to
bring the box to its original weight, repackaged the
speaker, resealed the package, and delivered it to the
of course, was identified with a different tracking number,
EL576175385US.

App. 44
post office for the next stage of the government’s
operation -- apprehension of the 730 Package’s
addressee, Brian O’Rourke.
O’Rourke was a crack cocaine addict. His
supplier was Sabrina Moss (“Sabrina”), defendantappellant Moss’s sister. O’Rourke, Sabrina, and
Moss had all been in the same hotel room with other
drug users about a week prior to the arrival of the
730 Package. O’Rourke and Moss did not know each
other and did not speak to each other in that hotel
room. Their interaction was limited to what can be
described as a mutual acknowledgement of each
other’s presence: they waved at each other after
Sabrina pointed out Moss to O’Rourke. Sabrina then
asked O’Rourke if he was willing to receive a package
at his apartment on Moss’s behalf in exchange for
three-and-a-half grams of crack cocaine.5 O’Rourke
agreed.
But the terms of this agreement were never
fleshed out any further. O’Rourke left the hotel room
5

According to O’Rourke, this amount of crack cocaine had a

street value of around $300.

App. 45
without Sabrina telling him when to expect the
package to arrive or the number of packages he
would receive. Nonetheless, from their
conversation’s reference to “a package,” O’Rourke
understood that their arrangement was limited to
the receipt of a single piece of mail. O’Rourke
believed everything would transpire in a simple,
quick manner: The package would arrive at his
apartment, Moss would pick it up, and he would
receive his illicit compensation. To O’Rourke’s
dismay, not even his first assumption materialized.
The same day the 730 Package arrived in
Manchester, a postal inspector dressed as a letter
carrier delivered a notice to O’Rourke’s mailbox
informing him that the package was ready for pickup
at the post office. Moss met with O’Rourke at the
latter’s apartment, where, instead of going directly to
the post office, they waited, believing that the 730
Package might yet be delivered there. Several hours
later, Sabrina and her boyfriend arrived at
O’Rourke’s apartment and joined the waiting game.
Once they realized the 730 Package would not be

App. 46
delivered directly to O’Rourke’s apartment, the four
individuals decided to decamp. O’Rourke and Moss
left the apartment at the same time. O’Rourke drove
directly to the post office, while Moss drove to a
shopping center located approximately a quarter
mile away from the post office and parked behind a
furniture store.
Sweet, who was behind the counter at the post
office, handed the 730 Package to O’Rourke.
O’Rourke then met with Moss behind the furniture
store and placed the 730 Package in the back seat of
Moss’s vehicle. Shortly thereafter, law enforcement
intervened and arrested Moss and O’Rourke on the
spot. O’Rourke was subsequently released on bond,
while Moss remained in custody.
2. The 962 Package
Three days later, on April 22, 2017, a second
package from Las Vegas, bearing the
EL652259962US tracking number (the “962
Package”), was delivered to O’Rourke’s address.
Because it was a box too large to fit in the mailbox,

App. 47
the 962 Package was placed in the building’s parcel
lockbox. O’Rourke noticed a key in his mailbox,
which served to notify residents that they had a
larger package ready for pickup. Because he was not
expecting a package and wanted “nothing to do with
it.” He opted to ignore they key and wait until he had
spoken with his lawyer before taking any action. The
following day, however, O’Rourke’s friend, Brenda
Krimtler (“Krimtler”) -- who was helping O’Rourke
get his affairs in order before he entered a drug
rehabilitation program -- picked up his mail and used
the key to retrieve the 962 Package from the
building’s parcel lockbox.
Krimtler then brought the 962 Package to
O’Rourke’s kitchen, opened it, and noticed it was full
of white powder. She reacted to this surprise by
telling O’Rourke, who was in another room, about
the package’s contents. O’Rourke responded by
instructing Krimtler to reseal the package and
return it to the parcel lockbox, which she did without
O’Rourke ever setting his eyes on it.

App. 48
O’Rourke then called his attorney and told her
about the package. With O’Rourke’s agreement, the
attorney called Sweet and explained the situation.
She informed Sweet about the 962 Package, told him
that the 962 Package had been opened, that
O’Rourke believed it contained narcotics, that
O’Rourke did not want it, and that Sweet could
search it.
With permission from O’Rourke’s attorney, Sweet
called O’Rourke later that evening. O’Rourke
confirmed the information that had been previously
conveyed by his attorney. He told Sweet that his
friend had opened the package, that it appeared to
contain narcotics, and that he consented to the
package being seized and searched. Because
O’Rourke expressly granted him permission to search
the package, Sweet did not seek a warrant. Instead,
he contacted another postal inspector who lived
closer to O’Rourke, Steve Riggins, who proceeded to
retrieve the 962 Package from the parcel lockbox.6
6

Given that the parcel lockboxes are designed to lock in the key

and remain opened once a resident gains access, the lockbox

App. 49
Riggins took the 962 Package to his car and, with
Sweet on the phone, opened it. Inside the package he
found a freezer bag. After unfurling the top of the
freezer bag,7 he noticed that it contained zip-top bags
with white powder. Riggins then took the 962
Package to the Manchester postal facility, where he
and Sweet thoroughly searched it and found that it
contained a total of eight zip-top bags with
approximately one pound of methamphetamine each.
B.

Procedural History
[1, 2] On May 17, 2017, a grand jury indicted

Moss for conspiracy to distribute a controlled
substance (50 grams or more of methamphetamine),
in violation of 21 U.S.C. § 846 (Count 1), and
possession of a firearm in furtherance of a drug
trafficking crime, in violation of 18 U.S.C. § 924(c)
(Count 2). Moss moved to suppress the 730 Package

with the 962 Package was open when Riggins arrived to
retrieve the package.

7

The top of the freezer bag was not sealed but rather furled to

one side, which allowed the bag to fit within the 962 Package.

App. 50
and the 962 Package, as well as any fruits obtained
from their searches. The government opposed Moss’s
motion to suppress, contending, among other things,
that Moss lacked a reasonable expectation of privacy
in the packages.8
On April 13, 2018, the district court held an
evidentiary hearing on the motion to suppress. After

8

While courts typically treat the question of whether a

defendant has a reasonable expectation of privacy as a
threshold issue, sometimes “refer[ing] to it as an issue of
‘standing,’” United States v. Lipscomb, 539 F.3d 32, 36 (1st Cir.
2008) (citation omitted), this analysis is “more properly placed
within the purview of substantive Fourth Amendment law than
within that of standing.” Minnesota v. Carter, 525 U.S. 83, 88,
119 S. Ct. 469, 142 L.Ed.2d 373 (1998) quoting Rakas v. Illinois,
439 U.S. 128, 140, 99 S.Ct. 421, 58 L.Ed.2d 387 (1978)). As the
Supreme Court recently explained, whether a defendant has a
reasonable expectation of privacy “is not a jurisdictional
question and hence need not be addressed before addressing
other aspects of the merits of a Fourth Amendment claim.”
Byrd v. United States, ___ U.S. ___, 138 S.Ct. 1518, 1530, 200
L.Ed.2d 805 (2018). Accordingly, we do not use the term
“standing” to describe the question. See United States v.
Bouffard, 917 F.2d 673, 675 (1st Cir. 1990).

App. 51
listening to the testimony of Sweet, O’Rourke,
Riggins, and Moss, the district court denied Moss’s
motion to suppress from the bench. In doing so,
however, the court opted to assume Moss had a
reasonable expectation of privacy in the packages
and denied his motion to suppress because neither
search was unconstitutional.
On April 25, 2018, Moss pleaded guilty to both
counts. Under the plea agreement, however, Moss
explicitly reserved the right to appeal the district
court’s denial of his motion to suppress. On August
2, 2018, the district court issued a written decision
explaining the basis for the ruling on the motion to
suppress, and sentence Moss to a total of 300 months’
imprisonment: 240 months for Count 1 and 60
months for Count 2, to be served consecutively.
In its written decision, as it had done in its ruling
from the bench, the district court again assumed
arguendo that Moss held a reasonable expectation of
privacy in the searched packages and concluded that
neither search was unconstitutional.

App. 52
The district court found that the warrant authorizing
the search of the 730 Package was not facially invalid
despite the government’s attachment of the incorrect
Attachment A. The court reasoned that, although
the attachment “described the wrong package, the
face of the warrant listed the correct tracking
number and, under the circumstances, the
probability that Inspector Sweet – who had already
secured the 730 Package – would execute the
warrant by searching an incorrect package was
exceedingly low.”
As to the 962 Package, the court held that
Riggins’s warrantless search was justified by both
the private search doctrine and O’Rourke’s consent.
Specifically, it found that the private search doctrine
applied because Riggins’s search did not exceed the
scope of Krimtler’s private search, and that O’Rourke
had both apparent and actual authority to provide
consent given that he was both the addressee and
recipient of the package. The current appeal ensued.

App. 53
II.

ANALYSIS

[3, 4] We review the district court’s denial of a
motion to suppress scrutinizing its factual findings
for clear error and its legal conclusions, including its
ultimate constitutional determinations, de novo. See
United States v. Owens, 917 F.3d 26, 34 (1st Cir.
2019). We “may affirm . . . suppression rulings on
any basis apparent in the record.” United States v.
Ackies, 918 F.3d 190, 197 (1st Cir. 2019) (quoting
United States v. Arnott, 758 F.3d 40, 43 (1st Cir.
2014)).
[5, 6] The Fourth Amendment protects “[t]he
right of the people to be secure in their persons,
houses, papers and effects, against unreasonable
searches and seizures.” U.S. Const. amend. IV. A
search within the meaning of the Fourth Amendment
occurs whenever the government intrudes upon any
place and in relation to any item which a person has
a reasonable expectation of privacy. See United
States v. Bain, 874 F.3d 1, 12 (1st Cir. 2017) (quoting
Katz v. United States, 389 U.S. 347, 360, 88 S.Ct.
507, 19 L.Ed.2d 576 (1967) (Harlan, J., concurring));

App. 54
United States v. Stokes, 829 F.3d 47, 51 (1st Cir.
2016). To advance claims for protection under the
Fourth Amendment, the defendant carries the
burden of “showing that he has ‘a reasonable
expectation of privacy in the area searched and in
relation to the items seized.’” Stokes, 829 F.3d at 51
(quoting United States v. Aguirre, 839 F.2d 854, 856
(1st Cir. 1988)).
[7] Because whether a defendant has a reasonable
expectation of privacy is not jurisdictional, it is
within an appellate court’s discretion to forgo the
question and proceed directly to the constitutionality
of the challenged searches. See Byrd v. United
States, ___ U.S. ___, 138 S.Ct. 1518, 1530-31, 200
L.Ed.2d 805 (2018). We opt to exercise this
discretion here and, without deciding whether Moss
had a reasonable expectation of privacy, address the
constitutionality of the searches of the 730 and 962
Packages in turn.
A.

Sweet’s Search of the 730 Package
Moss contends that the district court erred in

denying his motion to suppress the 730 Package and

App. 55
the fruits of its search. Because the warrant
incorporated by reference an attachment that
described a totally distinct package, Moss argues
that it failed to particularly describe the 730 Package
and was thus facially invalid for failure to comport
with the Fourth Amendment’s particularity
requirement. While we do not condone the
government oversight in assembling the 730
Packages search warrant, this argument fails.
[8-11] The Fourth Amendment unambiguously
requires that warrants “particularly describe[e] the
place to be searched, and the persons or things to be
seized.” Groh v. Ramírez, 540 U.S. 551, 557, 124
S.Ct. 1284, 157 L.Ed.2d 1068 (2004) (quoting U.S.
Const. amend. IV) (emphasis omitted). The manifest
purpose of this constitutional rule, known as the
particularity requirement, “is to prevent wideranging general searches by the police.” United
States v. Bonner, 808 F.2d 864, 866 (1st Cir. 1986).
“The test for determining the adequacy of the
description [in a warrant] of the location to be
searched is whether the description is sufficient to

App. 56
enable the executing officer to locate and identify the
premises with reasonable effort, and whether there is
any reasonable probability that another premise
might be mistakenly searched.” Id. (internal
quotation marks omitted). When carrying out our
inquiry, we do not strictly limit our analysis to the
four corners of the warrant but also “consider[ ] the
circumstances of [the warrant’s] issuance and
execution.” Id. Notwithstanding, the content of the
warrant application is outside the scope of our
analysis – it cannot save the actual warrant from its
failure to provide an adequate description. See Groh,
540 U.S. at 557, 124 S.Ct. 1284. “The fact that [a
warrant] application adequately describe[s] the
‘things to be seized’ does not save [a] warrant from
its facial invalidity. The Fourth Amendment by its
terms requires particularity in the warrant, not in
the supporting documents.” Id. (emphasis omitted).9
9

Notwithstanding, “[a]n affidavit may be referred to for

purposes of providing particularity if the affidavit accompanies
he warrant, and the warrant uses suitable words of reference
which incorporate the affidavit.” United States v. Roche, 614

App. 57
Supreme Court precedent provides useful
guidance. In Groh, the Supreme Court held that a
warrant that “did not describe the items to be seized
at all” was facially invalid under the Fourth
Amendment because it did not meet the particularity
requirement. Id. at 558, 124 S.Ct. 1284. While the
warrant application stated that law enforcement
sought to seize “automatic firearms . . . grenades,
grenade launchers, [and] rocket launchers,” among
other things, the warrant itself simply referenced the
place to be searched – a “single dwelling residence
. . . blue in color” – in the space provided for the
description of the items to be seized. Id. at 554, 558,
124 S.Ct. 1284. In reaching its conclusion that the
warrant did not meet the particularity requirement,
F.2d 6, 8 (1st Cir. 1980) (citation omitted); accord Groh v.
Ramírez, 540 U.S. 551, 557-58, 124 S.Ct. 1284, 157 L.Ed.2d
1068 (2004) (“We do not say that the Fourth Amendment
prohibits a warrant from cross-referencing other documents.
Indeed, most Court of Appeals have held that a court may
construe a warrant with reference to a supporting application or
affidavit if the warrant uses appropriate words of incorporation,
and if the supporting document accompanies the warrant.”).

App. 58
the Supreme Court stressed that the “obviously
deficient” warrant “did not simply omit a few items
from a list of many to be seized, or misdescribe a few
of several items. Nor did it make what fairly could
be characterized as a mere technical mistake or
typographical error.” Id. at 558 124 S.Ct. 1284.
Our decision in Bonner is similarly helpful here.
There, the defendants challenged a warrant
authorizing the search of their residence, claiming
that it was defective because it omitted the
residence’s exact address. 808 F.2d at 865-66. In
upholding the validity of the search warrant, we
concluded that, despite the “technical omission” of
the address, the “[defendants’] residence was
described with sufficient particularity,” given that a
detailed physical description of the residence was
included in the warrant. Id. at 866-67. We also
found that “[t]here was no risk that federal agents
would be confused and stumble into the wrong house,
or would take advantage of their unforeseeable
windfall and search houses indiscriminately.” Id. at
866-67. In support of this conclusion, we emphasized

App. 59
that “[t]he agents, having previously conducted the
surveillance [of the residence], knew exactly which
house they wanted to search . . . and searched only
that house.” Id. at 867.
We faced a similar situation in United States v.
Vega-Figueroa, 234 F.3d 744 (1st Cir. 2000), and
again denied the defendant’s challenge to the district
court’s denial of his motion to suppress. In that case,
the defendant claimed that a warrant to search his
residence failed to comply with the particularity
requirement because it “mistakenly described the
apartment to be searched as building 44, apartment
446,” when “[his] address was in fact building 45,
apartment 446.” 234 F.3d at 756. Noting that the
defendant’s apartment was the only residence
eventually searched and that the same officer who
“made the observations that were the basis for
issuing the warrant” was also the warrant’s
executing officer, as well as a member of the search
team, we concluded that there was no risk of the
wrong house being searched. Id. Therefore, we ruled

App. 60
that the warrant was properly issued and executed.
Id.
[12] Here, the district court did not err in denying
Moss’s motion to suppress. The present case is
distinguishable from Groh and more analogous to
Bonner and Vega-Figueroa. In Groh, the issued
warrant did not describe the items to be seized at all.
540 U.S. at 558, 124 S.Ct. 1284. In turn, the warrant
at issue in this appeal provides a description of the
730 Package in for form of its exclusive tracking
number, which was included in the issued warrant’s
caption. In other words, the warrant was not totally
devoid of an accurate description of the 730 Package.
And Moss concedes as much.
Our inquiry, however, does not end here. Because
the 730 Package’s warrant includes two conflicting
descriptions – on one hand, the correct tracking
number in its caption and, on the other, the
inaccurate description in the appended attachment –
we must look further to ensure it meets the
particularity requirement. Thus, we employ the

App. 61
rubric set out in Bonner to ascertain the adequacy of
the warrant’s description.
Under the test established in Bonner, we first
examine the adequacy of a warrant’s description
based on whether it is “sufficient to enable the
executing officer to locate and identify” the object to
be searched with reasonable effort. 808 F.2d at 866
(emphasis added). Because Sweet had segregated
the 730 Package in the parcel inspection room prior
to the issuance of the search warrant, there was no
real risk here of him having to expend an
unreasonable effort to locate and identify it.
Moreover, Sweet’s familiarity with the 730 Package,
which will be discussed in detail below, meant that,
in any case, he did not require a description beyond
the exclusive tracking number to properly execute
the arrest warrant. See id. at 867 (holding that a
detailed description of a residence, albeit one without
a specific address, was sufficient to meet the
particularity requirement given that the agents
executing the warrant because had previously
surveilled it). While definitely not as detailed as the

App. 62
description that Sweet and Moss intended to
incorporate by reference into the warrant, the
tracking number’s unique combination of thirteen
digits provided a description with a high degree of
particularity. Again, Moss concedes as much. Thus,
we conclude that, within the circumstances of this
case, inclusion of the 730 Package’s tracking number
in the warrant would have been sufficient for the
executing officer, Sweet, to locate and identify it
without expending an unreasonable effort even if he
had not isolated it in the parcel inspection room prior
to the issuance of the warrant.
Considering the circumstances of its issuance and
execution, the warrant authorizing the 730 Package’s
search suffered from a mere technical error. See id.
at 866; see also United States v. Qazah, 810 F.3d
879, 886 (4th Cir. 2015) (classifying the inclusion of
an incorrect attachment in a search warrant as a
“technical one”). The fact that Sweet isolated the 730
Package in the parcel inspection room following the
positive dog sniff but prior to the issuance of the
search warrant couple with his familiarity with the

App. 63
package’s physical characteristics (e.g., size, weight,
etc.) effaced any reasonable probability of him
mistakenly searching another package. Apart from
being the warrant’s executing officer, Sweet
participated in every stage leading up to the search
of the 730 Package. He conducted the investigation
that led to the 730 Package being singled out even
before its arrival in Manchester; was present during
the canine’s dog sniff; drafted the search warrant
application’s affidavit; sought issuance of the
warrant from the magistrate judge; and, of course,
executed the search. Cf. Bonner, 808 F.2d at 866-67;
Vega-Figueroa, 234 F.3d at 756. Furthermore, Sweet
knew that the package described in the search
warrant’s Attachment A was related to a separate
2016 investigation in which he had participated.10
In sum, we find that, despite the presence of
conflicting descriptions in the warrant, the 730
10

Furthermore, the property described in the issued warrant’s

Attachment A and the 730 Package had significantly different
physical characteristics; while the first was a five-ounce
envelope, the second was a twenty-six-pound box.

App. 64
Package was described with sufficient particularity
for Sweet to identify it and there was no reasonable
probability of Sweet searching another package;
therefore, the warrant was valid.
B.

Warrantless Search of 962 Package
[13] The warrantless search of the 962 Package

was justified by O’Rourke’s consent. O’Rourke
verbally consented to the search of the 962 Package
twice – first through his attorney and then directly to
Sweet. As the package’s addressee and recipient,
O’Rourke had actual authority over the 962 Package
and therefore capacity to consent to its search. See
United States v. Matlock, 415 U.S. 164, 171 n.7, 94 S.
Ct. 988, 39 L.Ed.2d 242 (1974) (recognizing control as
a factor to be considered when determining whether
a person has authority over property); see also Eagle
Tr. Fund v. United States Postal Serv., 365 F. Supp.
3d 57, 60-61 (D.D.C. 2019) (“[T]he Domestic Mail
Manual, which sets out the procedures for mail
delivery by the Postal Service, provides that an
addressee controls the delivery of its mail.”), appeal
on other grounds docketed, No. 19-5090 (D.C. Cir.

App. 65
Apr. 8, 2019); 39 C.F.R. § 211.2(a)(2) (stating that the
Domestic Mail Manual forms part of the Postal
Service’s regulations). Notwithstanding, even if he
lacked authority, as Moss contends, the search was
valid because, being the package’s address, it was
reasonable for Sweet and Riggings to believe that
O’Rourke had apparent authority to consent to its
search. See United States v. González, 609 F.3d 13,
18 (1st Cir. 2010) (“A search is valid if, at the time,
officers reasonably believe a person who has
consented to a search has apparent authority to
consent, even if the person in fact lacked that
authority.”).
We therefore hold that the warrantless search of
the 962 Package did not infringe on Moss’s Fourth
Amendment rights.11
III. CONCLUSION

11

Because O’Rourke’s consent justified the warrantless search

of the 962 Package, we need not address the district court’s
alternate, private search doctrine basis for the denial of the
package’s suppression. See United States v. Ackies, 918 F.3d
190, 197 (1st Cir. 2019).

App. 66
Based on the foregoing, we affirm the district
court’s denial of Moss’s motion for suppression of
evidence.
Affirmed.

App. 67

APPENDIX C

App. 68
UNITED STATES COURT OF APPEALS
For the First Circuit
______________________
No. 18-1793
UNITED STATES OF AMERICA,
Appellee,
v.
DUSTIN MOSS,
Defendant, Appellant.
______________________
JUDGMENT
Entered: August 26, 2019
This cause came on to be heard on appeal from
the United States District Court for the District of
New Hampshire and was argued by counsel.
Upon consideration whereof, it is now here
ordered, adjudged and decreed as follows: The

App. 69
district court’s denial of Dustin Moss’ motion to
suppress is affirmed.
By the Court:
Maria R. Hamilton, Clerk
cc:
Simon R. Brown
Dustin Moss
John Staige Davis
William Edwsrd Morse
Seth R. Aframe
Shane B. Kelbley

App. 70

APPENDIX D

App. 71
UNITED STATES COURT OF APPEALS
For the First Circuit
______________________
No. 18-1793
UNITED STATES OF AMERICA,
Appellee,
v.
DUSTIN MOSS,
Defendant, Appellant.
______________________
Before
Torruella, Lynch,
And Kayatta,
Circuit Judges.
______________________
ORDER OF COURT
Entered: September 24, 2019

App. 72
Appellant Dustin Moss’ Petition for Rehearing is
denied.
By the Court:
Maria R. Hamilton, Clerk
cc:
Simon R. Brown
Dustin Moss
John Staige Davis
William Edwsrd Morse
Seth R. Aframe

App. 73

APPENDIX E

App. 74
UNITED STATES DISTRICT COURT
for the
District of New Hampshire
In the Matter of the

)

Search of

)

(Briefly describe the

)

property to be

)

searched or identify

)

the person by name

)

and address)

) Case No. 17-mj-35-01-AJ

USPS Priority Mail

)

Express Package

)

Bearing Tracking

)

Number

)

EL810533730US

)
)

SEARCH AND SEIZURE WARRANT
To:

Any authorized law enforcement officer
An application by a federal law enforcement

officer or an attorney for the government requests

App. 75
the search of the following person or property located
in the

District of

New Hampshire

(identify the person or describe the property to be
searched and give its location)
See Attachment A, as attached hereto and
incorporated herein.

I find that the affidavit(s), or any recorded
testimony, establish probable cause to search and
seize the person or property described above, and
that such search will reveal (identify the person or
describe the property to be seized):
Property that constitutes evidence, fruits, and/or
other instrumentalities of violations of 21 U.S.C.
841(a)(1), 843(b), and 846 as set forth in Attachment
B, as attached hereto and incorporated herein.

App. 76
YOU ARE COMMANDED to execute this warrant
on or before May 3, 2017

(not to exceed 14

days)
 in the daytime 6:00 a.m. to 10:00 p.m.
 at any time in the day or night because good
cause has been established.
Unless delayed notice is authorized below, you
must give a copy of the warrant and a receipt for the
property taken to the person from whom, or from
whose premises, the property was taken, or leave the
copy and receipt at the place where the property was
taken.
The officer executing this warrant, or an officer
present during the execution of the warrant, must
prepare an inventory as required by law and
promptly return this warrant and inventory to
Andrea K. Johnstone, U.S. Magistrate Judge .
(United States Magistrate Judge)
 Pursuant to 18 U.S.C. § 3103a(b), I find that
immediate notification may have an adverse result
listed in 18 U.S.C. § 2705 (except for delay of trial),

App. 77
and authorize the officer executing this warrant to
delay notice to the person who, or whose property,
will be searched or seized (check the appropriate box)
 for

days (not to exceed 30)

 until, the facts justifying, the later specific date
of

.

Date and time issued: 4/19/2017; 9:49 am
/s/ Andrea K. Johnston
(Judge’s signature)
City and state:

Concord, NH

Andrea K. Johnstone, U.S. Magistrate Judge
(printed name and title)

App. 78
Return
Case No:

Date and Time

Copy of warrant

17-mj-35-01-AJ

Warrant

and inventory

Executed:

left with:

4/19/17

O’Rourke

10:45 AM
Inventory made in the presence of:
Sweet + Evans Postal Inspectors
Inventory of the property taken and any person(s)
seized:
1 “Kicker Speaker” Box w/ gray wooden speaker w/
black plastic grill Label # EL810533730US
12 1 lb. clear Ziplock Bags w/ clear crystal materials;
FTP for Meth
Certification
I declare under penalty of perjury that this
inventory is correct and was returned along with the
original warrant to the designated judge.

App. 79
Date: 5/13/17

/s/ Bruce Sweet
Executing Officer’s signature
Bruce Sweet Postal Inspector
Printed name and title

App. 80
ATTACHMENT A
(Description of Property to be Searched)
SUBJECT PACKAGE: A USPS Priority Mail
Express package bearing tracking number
EL576175385US. The package is a white USPS
Priority Mail Express cardboard envelope measuring
approximately 12.5 inches long, 9.5 inches wide, and
2 inches thick, and weighing approximately 5 ounces.
The package bears a handwritten mailing label and
is addressed to “Mr. Golden 322 Union Ave #6
Laconia, NH 03246” with a return address of
“Sequoia High School 300 El Camino RWC CA
94062.” The package is currently in the possession of
the United States Postal Inspection Service, located
at 955 Goffs Falls Rd., Manchester, NH 03103.

App. 81
ATTACHMENT B
Items, documents, records, files and other
information that constitutes evidence, fruits, and/or
other instrumentalities of violations of Title 21,
United States Code, Sections 841(a)(1), 843(b), and
846, including controlled substances, money, records
relating to controlled substances and/or money,
and/or records relating to the identity of the
individual who shipped the package or the intended
recipient of the package.

